                            SOCIAL SECURITY
                            Office of the Inspector General

                                     March 7, 2012

The Honorable Dave Camp
Chairman, Committee on
 Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Chairman:

In an October 6, 2011 letter, the Committee expressed concerns that managers in the
Office of Disability Adjudication and Review (ODAR) may have instructed administrative
law judges (ALJ) and hearing office employees to set aside their disability cases during
the last week of September 2011 (referred to as “black-out” dates in the letter) and
refrain from issuing decisions until the following week, which would have delayed the
award of benefits to thousands of claimants awaiting ALJ decisions. To address these
concerns, we reviewed the Agency’s management oversight and controls at its hearing
offices in Alabama, Arizona, Colorado, Florida, Georgia, Ohio, and Tennessee. We
added Oklahoma and West Virginia later at the request of Senator Coburn. For the
hearing offices in those States, we reviewed management oversight and controls at the
corresponding regional offices as well as the ODAR headquarters office. Moreover, we
reviewed complaints, and when complaints were made, regarding “black-out” dates and
whether leadership took any corrective action. Finally, we determined whether there
were any patterns among Agency managers of instructing employees to manipulate
workloads.

To ensure the Social Security Administration is aware of the information provided to
your office, we are forwarding a copy of this report to the Agency. If you have any
questions concerning this matter, please call me or have your staff contact Misha Kelly,
Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                         Sincerely,




                                         Patrick P. O’Carroll, Jr.
                                         Inspector General
Enclosure
cc:
Michael J. Astrue

             SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

Oversight of the Year-end Hearings Process


              A-05-12-21254




               March 2012
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                              Background
OBJECTIVE
Our objective was to address the House Committee on Ways and Means’ and a
Senator’s concerns that managers at the Social Security Administration (SSA) may
have asked administrative law judges (ALJ) and staff to set aside the processing of
hearing-related claims during the last week of September 2011.

BACKGROUND
In an October 6, 2011 letter, Committee members expressed concern that managers in
the Office of Disability Adjudication and Review (ODAR) may have instructed ALJs and
hearing office employees to set aside their disability cases during the last week of
September 2011 and refrain from issuing decisions until the following week, which
would have delayed the award of benefits to thousands of claimants awaiting ALJ
decisions.

The Committee requested the Inspector General (IG) review the Agency’s management
oversight and controls at its hearing offices in Alabama, Arizona, Colorado, Florida,
Georgia, Ohio, and Tennessee. In an October 19, 2011 letter, Senator Coburn
requested we expand our review to include Oklahoma and West Virginia.

The requestors asked the IG to address the following areas.

1. Management oversight and controls at the nine hearing offices, appropriate regional
   offices, and ODAR headquarters.

2. What complaints were made, and when, about “black-out” directives; and whether
   leadership took any corrective action.

3. Whether there was any pattern among managers of instructing employees to
   manipulate workloads for personal gain.

To address these concerns, we interviewed senior executives and managers regarding
communication, complaints, Agency policy, and workload processing during the week of
September 24 through 30, 2011. We also reviewed Agency workload, leave, and
training information to compare workload processing and staff availability during the
week in question to other periods. Finally, we sent questionnaires to approximately
2,400 ODAR hearing office personnel working in the 9 States in our review, which
comprised 41 offices and 2 decision-writing units, to better understand hearing case
processing during the week in question.




Oversight of the Year-end Hearings Process (A-05-12-21254)                             1
                                                    Results of Review
Since as early as 1983, SSA has not counted workload totals for the 53rd week in its
year-end management information (MI) data. As a result, from September 24 through
30, 2011, also referred to as Week 53, SSA did not include its process workload count
toward either its Fiscal Year (FY) 2011 or 2012 MI totals. This policy affected how
workloads were counted throughout the Agency and not only ODAR’s hearing
workloads. Several ODAR nationwide hearings workload counts, namely hearing
dispositions and decisions written, decreased significantly during Week 53. For
example, hearing dispositions dropped 87.8 percent compared to an average week in
FY 2011. Even when we compared this workload decrease to end of FY 2010 data, this
decline was significant. Other workloads, such as cases pulled and hearings held, did
not appear to change. ODAR executives stated these Week 53 workload decreases
may have related to some employees deferring certain workloads which did not count
toward performance goals. ODAR executives also cited staff training and leave during
Week 53 as factors related to the workload decrease. ODAR officials stated they
communicated the Week 53 policy to managers and attempted to address complaints
and confusion from the hearing offices.

Our survey of ODAR hearing office personnel in nine States found the majority
processed workloads as usual during Week 53. However, 17 percent of the
respondents stated they changed their case processing. More than half of these
individuals attributed the change to how workloads were being counted. Less than
1 percent of the individuals who changed their processing stated they complained to
management about the change. We also reviewed training and leave data associated
with employees in these nine States and found no significant levels of activity to explain
the decline in the hearing office workloads. Finally, to identify any patterns of managers
instructing employees to inappropriately adjust workloads, we also asked questions
regarding instructions from management. About 43 percent of the respondents who
stated they were instructed to change their case processing during Week 53 believed
the changes would inappropriately influence workload counts. About 8 percent of all
respondents stated they received instructions to modify case processing at various
times during FY 2011 that could inappropriately influence workload counts.

While it appeared ODAR employees were working throughout Week 53, this work was
not always being processed in the same manner or captured in SSA’s systems. We
believe future workload issues can be resolved if SSA developed a policy with steps to
ensure workloads are processed and measured uniformly throughout the year. SSA
executives reported they plan to modify the process to ensure these workloads are
processed and counted normally throughout any year with 53 weeks, though the
Agency was still determining the specific steps at the time of our audit.




Oversight of the Year-end Hearings Process (A-05-12-21254)                               2
SSA OPERATIONS’ 53-WEEK REPORTING POLICY

Since as early as 1983, SSA has set up its annual operational reporting cycle where the
53rd week in a year (Week 53) did not count towards either the prior or following FY’s
workload totals. In September 1983, a Department of Health and Human Services’
Management Information Director1 issued a memorandum highlighting all the years
containing 53 weeks from 1984 through 2095. 2 Under this policy, every 5 to 6 years
SSA’s operating year contains 53 weeks, rather than 52.

This Week 53 policy was reinforced in an April 2011 Office of Quality Performance
(OQP) policy paper, 3 which noted, “OMB and the Congress are familiar and comfortable
with this pattern.” 4 The OQP paper also noted, “. . . other performance information
(and, for that matter, performance goals) has generally been calculated and reported on
this same basis to avoid confusion and adverse reaction.” 5 SSA distributed this April
2011 document to Agency managers.

Like other Federal agencies, SSA reports its performance measures in its Performance
and Accountability Report (PAR). 6 Because there were 53 weeks in FY 2011, SSA
reported FY 2011 performance measures through both the end of Weeks 52 and 53 for
17 performance measures (see Appendix C), which included non-ODAR workloads.
While these Week 53 workloads were not originally included in the performance results
for FY 2011, the report allows the reader to view the data using two distinct ending
dates for the FY. 7 SSA did not address or provide a similar breakout on Week 53 in its
FY 2005 PAR.




1
 SSA was a component of the Department of Health and Human Services. On March 31, 1995, SSA
became an independent agency.
2
 This September 16, 1983 paper, SSA Calendar and Management Information System (MIS) Schedule—
ACTION, stated its recommended approach was consistent with Office of Management and Budget
(OMB) policy. The 1983 paper also stated a mandate from the OMB set standards throughout
Government agencies that each year consists of 52 weeks and each quarter consists of 13 weeks.
3
    SSA OQP, 53-Week Operating Year Policy, April 15, 2011.
4
  Id at p. 1. The April 2011 OQP paper also noted that OMB does not require 52 weeks for performance
reporting.
5
    Id at p. 1 (Emphasis in original).
6
  The Government Performance and Results Act of 1993, Pub.L. No. 103-62,107 Stat.285 (1993)
(codified in scattered sections of 31 U.S.C.), provides the establishment of strategic planning and
performance measurement in the Federal Government and for other purposes. The PAR is provided to
the President, Congress, and the public as a measure of how well programs and finances are managed.
7
 The addition of the Week 53 data did not change whether SSA met or did not meet its performance
goals for the year.


Oversight of the Year-end Hearings Process (A-05-12-21254)                                             3
NATIONAL WORKLOAD COUNTS DURING WEEK 53

Hearing dispositions 8 declined significantly nationwide during Week 53 compared to the
other weeks during that period (see Figure 1). Hearing dispositions during Week 53
decreased nationally by 87.8 percent compared to an average processing week in
FY 2011. Our review of workload statistics for each of ODAR’s 10 regions revealed
hearing disposition declines averaged between 82 and 98 percent.

                                   Figure 1: Hearing Dispositions Nationwide in Week 53
                                              and Surrounding Weeks in 2011
                        30,000



                        25,000



                        20,000
      Number of Cases




                        15,000



                        10,000



                         5,000
                                                                 Week 53

                            0
                                   09/03/11 09/10/11 09/17/11 09/24/11 10/01/11 10/08/11 10/15/11 10/22/11
                                 - 09/09/11 - 09/16/11 - 09/23/11 - 09/30/11 - 10/7/11 - 10/14/11 - 10/21/11 - 10/28/11
                                                                     Processing Week

The decline in hearing dispositions processed during Week 53 was greater than the
reduction in a similar period at the end of FY 2010 (see Figure 2). We also found a
similar decline in decisions written, though not as pronounced (see Figure E-1 in
Appendix E). We did not identify any workload declines related to cases pulled 9 and
hearings held (see Appendix E).



8
    “Hearing dispositions” refers to the number of decisions and dismissals during the reporting period.

9
    “Cases pulled” refers to the process of preparing a case file for a hearing.



Oversight of the Year-end Hearings Process (A-05-12-21254)                                                                4
        Figure 2: Comparison of Hearing Dispositions Nationwide Following
                   52-Week FY Reporting Cycles in 2010 and 2011




Note: We compared Week 53 (September 24, 2011 to September 30, 2011) to the first week of the
reporting cycle in FY 2011 (September 25, 2010 to October 1, 2010) because both follow a 52-week FY
reporting cycle. See Appendices D and E for more on the reporting cycles and other ODAR workloads in
FYs 2010 and 2011.

SSA expects ALJs and other staff to achieve weekly, monthly, and annual performance
goals. For example, ODAR asks ALJs to issue 500 to 700 legally sufficient decisions
timely each year and hold scheduled hearings unless there is a good reason to
postpone or cancel. 10 Some ODAR executives believed declines in case processing
during Week 53 reflected some individuals’ concerns that certain workloads were not
being measured and counted toward these performance goals. ODAR executives
stated that Week 53 was unique in other ways that should be considered when
assessing ODAR’s diminished output that week.




10
  In an October 31, 2007 Memorandum, ODAR’s Chief ALJ identified expectations regarding the services
ALJs provide to the public. Mainly, he asked ALJs to issue 500 to 700 legally sufficient decisions each
year; act on a timely basis; and hold scheduled hearings unless there is a good reason to postpone or
cancel. SSA considers the 500 minimum decisions a goal, not a quota. In a December 2007
Memorandum, the Chief ALJ followed up on the earlier Memorandum and emphasized the importance of
legally sufficient hearings and decisions.


Oversight of the Year-end Hearings Process (A-05-12-21254)                                           5
     •   Some ALJs and employees were on leave (which included religious leave for
         Rosh Hashanah) for several, if not all, of the days of the week, further reducing
         adjudicatory capacity;
     •   158 ALJs were attending and/or providing training at Headquarters;11 and
     •   33 group supervisors (GS) and 50 hearing office directors (HOD) were attending
         or providing training during Week 53. 12

COMMUNICATIONS, COMPLAINTS, AND CORRECTIVE ACTIONS

ODAR executives communicated SSA policy and performance expectations regarding
Week 53 to hearing office managers leading up to and during Week 53. According to
ODAR executives, at various times during the FY, the Deputy Commissioner for ODAR
instructed managers and staff to move the workload as evenly as possible to minimize
the effect on claimants and the Agency. ODAR executives also stated that before Week
53:

     •   Hearing office managers were instructed to remind staff to continue holding
         hearings and making decisions.
     •   All-managers conference calls were used to remind managers of their expectation
         that staff should continue processing cases timely during Week 53 and making
         quality decisions.
     •   Managers were reminded that Week 53 should be “business as usual.”

In spite of these communications, ODAR executives stated they heard allegations that
some hearing office personnel believed they were to defer certain case actions based
on information received through word-of-mouth or staff meetings. ODAR management
directly responded to a number of complaints and inquiries to eliminate confusion. In
addition, in the middle of Week 53, the Chief Administrative Law Judge (CALJ) sent an
email to ODAR executives and management advising them to continue processing
workloads normally. 13 However, the CALJ also made it clear that Week 53 dispositions
would “. . . not be counted for statistical purposes in either fiscal year 2011 or 2012.”

In our discussions with Headquarters and regional managers, we were told that work
was being processed evenly during Week 53 even if the staff was not finalizing the step
to completion. For example, a decision could be written but not recorded as completed
during Week 53. One ODAR regional manager instructed hearing office personnel to


11
  This represents about 11 percent of the approximately 1,400 ALJs generally available to process
hearings.
12
   SSA has approximately 160 hearing offices. Each hearing office has one HOD and about two GSs. As
a result, the training noted above relates to about 31 percent of the HODs and 10 percent of the GSs.
We provide more information on leave and training in our review of the nine States later in this report.
13
     The email was sent on Wednesday, September 28, 2011.


Oversight of the Year-end Hearings Process (A-05-12-21254)                                             6
maintain a separate list of cases processed during Week 53 so they could be input the
following week for appropriate workload credit.

HEARING CASE PROCESSING IN NINE STATES

We sent 2,415 questionnaires to all of the hearing office personnel in the 41 hearing
offices and 2 decision-writing units in Alabama, Arizona, Colorado, Florida, Georgia,
Ohio, Oklahoma, Tennessee, and West Virginia. 14 We received 1,533 responses (an
approximately 63-percent response rate). About 74 percent of the responses came
from hearing office staff, 17 percent from ALJs, and 8 percent from managers (see
Figure 3). 15

                              Figure 3: Positions of Respondents to
                                   the Nine State Questionnaire
                                          (1,533 Respondents)




Of the 1,277 respondents who noted they held positions requiring case processing
during Week 53, 220 (17 percent) stated they changed their processing of hearing
cases during that week (see Figure 4). Of these 220 respondents, 121 (55 percent)
noted they believed or knew that hearing workloads were counted differently during
Week 53 compared to other weeks throughout the year.




14
     See Appendix F for the questionnaire and responses..
15
     See Appendix G for the location of the questionnaire respondents.


Oversight of the Year-end Hearings Process (A-05-12-21254)                              7
                      Figure 4: Case Processing in Nine States During Week 53
                                                 (1,277 Respondents)



                   Delayed Case Processing       36 (3 percent)



              Accelerated Case Processing         39 (3 percent)
 Response




                                                       145 (11 percent)
                 Modified Case processing


            Did Not Change Case Processing                                                  1,057 (83 percent)


                                             0      200       400     600     800    1000    1200
                                                             Number of Respondents

Of the 220 respondents who stated they modified their hearing case processing,
145 (66 percent) noted it was not specifically to delay or accelerate the process. When
we reviewed the written comments, we found that some of the modifications related to
how cases were being counted as well as how workload priorities changed. For
example, three of the respondents who stated they modified their case processing also
noted the following.

             I was told by my supervisor to not send any cases to the Administrative Law
             Judges to EDIT or SIGN because the office would not get credit for any cases
             released that week.
             I processed all cases through edit…I was told by management to hold the cases
             for signature until Monday so we would get credit for the decisions in the new FY.
             I was instructed to give greater priority to completing evidentiary summaries of
             cases for post-hearing review by the ALJs. This change in priority was at the
             behest of my workload supervisor.

Of the respondents indicating they were instructed or encouraged to change their
hearing case processing, 11 stated they filed oral or written complaints with their
management stating their concerns about Week 53. For example, two of the complaints
noted the following.

               . . . ODAR was holding cases for the next week when they would "count"
               because they didn't "count" during blackout week.
               I looked at the amount of cases we closed at week’s end and compared it to our
               average. We closed approximately 11 cases and we average 145 cases a week.

We reviewed training and leave data associated with employees in these nine States
and found the information did not indicate any significant levels of activity that would



Oversight of the Year-end Hearings Process (A-05-12-21254)                                                   8
explain the decline in the hearing office workloads during Week 53. Among employees
in the nine States, 7 percent of the questionnaire respondents stated they were in
training 1 day or more during Week 53. We reviewed ODAR-provided training data for
these same nine States for comparative purposes and found that the training data
revealed a doubling of work hours dedicated to training during Week 53 (see Table 1).
However, since approximately 96,000 work hours were available each full work-week at
the hearing offices in these 9 States, the work hours dedicated to training in Week 53
were approximately 1.9 percent. ODAR management stated the training information
provided to us may be understated. However, even if we assumed twice as much time
spent in training, the work hours dedicated to training was about 3.8 percent. 16

                        Table 1: Training Hours among Hearing Office
                                  Employees in Nine States
                                                                     Number of Employee
                          Processing Week
                                                                       Training Hours
        September 10 – 16, 2011                                                 752
        September 17 – 23, 2011                                                 801
        September 24 – 30, 2011 (Week 53)                                     1,799
        October 1 – 7, 2011                                                     785
        October 8 – 14, 2011                                                  1,267
       Note: Training information was obtained from ODAR’s Training Information System, which is based
       on employee self-reporting. ODAR managers stated that data for the Denver and Atlanta Decision
       Writing Units were not available.

Among employees in the nine States who responded to our questionnaire, 17 percent
stated they were on leave 1 day or more during Week 53. We also reviewed leave data
for ODAR employees in the nine States for comparative purposes and found it did not
explain the decline in the hearing office workloads (see Table 2). Both nationally and in
the nine States, leave comprised about 16 percent of available work hours in
Week 53, 17 an increase from 13 percent the prior pay period. Leave hours increased to
about 25 percent the following pay period because of a national holiday. Nonetheless,
national ODAR dispositions during this holiday week were about 10,500 cases greater
than Week 53. 18




16
 ODAR managers estimated that about 4 to 5 percent of the nationwide workforce was in training during
Week 53.
17
  Of the 70,248 hours of national leave recorded during Week 53, 2,271 of these hours (3.2 percent)
were recorded as “religious-compensatory hours.” ODAR managers earlier mentioned that Rosh
Hashanah in Week 53 may have led to fewer employees available to process workloads.
18
     See Appendix E for more on workload counts.


Oversight of the Year-end Hearings Process (A-05-12-21254)                                            9
         Table 2: Leave Hours Among ODAR Employees in the Nine States
                                                                  Percent of Employee
                            Pay Period
                                                                      Leave Hours
      September 11 – 24, 2011                                           13 percent
      September 25 – October 8, 20111                                   16 percent
      October 9 – 22, 20112                                             25 percent
     Note 1: Leave use was 16 percent during both weeks in this pay period, which includes Week 53.
     Note 2: October 10, 2011, was a Federal holiday – Columbus Day.

To identify a pattern among managers of instructing employees to inappropriately adjust
workloads, respondents were asked questions regarding instructions from
management. Of the 1,277 respondents, 209 (16 percent) stated they were instructed
or encouraged to change their case processing during Week 53, regardless of whether
they actually changed their processing that week. 19 Among these 209 respondents,
90 (43 percent) believed the changes would inappropriately influence workload counts.
In addition, 97 (8 percent) of the 1,277 respondents stated they received instructions to
modify case processing at some point in FY 2011 that they believed would
inappropriately influence workload counts. We also asked about the frequency of such
instructions during FY 2011 and note the results in Figure 5.

           Figure 5: Frequency of Management Instructions to Employees
               in the Nine States to Modify Processing During FY 2011
                                          (97 Respondents)


                                              13%



                  19%
                                                                             40%




                                    28%

                        Few Times a Year (40 percent)   Almost Monthly (28 Percent)
                        Almost Weekly (19 percent)      Almost Daily (13 percent)




19
  This group may include some of the earlier 220 respondents who stated they changed their case
processing during Week 53. However, the earlier 220 respondents were answering a question about
their behavior during Week 53 regardless of any instructions from managers.


Oversight of the Year-end Hearings Process (A-05-12-21254)                                        10
MODIFICATIONS TO THE WEEK 53 POLICY

ODAR executives indicated they would like to resolve workload issues related to
Week 53. However, because of the Agency-wide nature of the issue, it is more likely
that the Offices of Systems and Budget, Finance and Management, not ODAR, would
have the lead on this initiative. Moreover, the April 2011 OQP policy paper indicated
that moving away from the year-end policy would be complex and costly for SSA,
stating, “It would not be cost-effective to expend the resources to alter our systems and
processes solely for the purpose of capturing data according to a calendar year.” 20

On January 11, 2012, OQP finalized an updated Week 53 policy paper documenting the
Commissioner’s October 6, 2011 decision to revise the policy regarding 53-week FYs.
The policy paper also states that, in the future, the 53rd week of data will be included for
all MI counts within reason. 21 In our discussion with OQP management, we were told
that “within reason” means any MI changes must be “cost beneficial to the Agency.” At
the time of our review, the Agency was still finalizing the specific steps to be taken to
resolve the Week 53 issue. In commenting on our report, the Agency stated that the
first application of the new policy will be in 2016, and the Agency’s performance plan will
include all work performed in the 53rd week.

We believe SSA could have avoided the Week 53 slowdown in hearing case processing
if policy and communications to employees clearly indicated that work processed during
Week 53 would be measured the same as workloads processed throughout the year.
The Agency needs to develop a policy that not only reports on all workloads in years
with 53 weeks but also provides employees with appropriate policies, procedures, and
guidance to process these workloads evenly throughout the year.




20
  This paper also noted “. . . considerable costs in staff time would undoubtedly be required in order to
change any particular reporting year to a 53-week basis, to explain this change, and to calculate the
comparability factors each time that data for a 52-week reporting year was compared to that for a
53-week reporting year.” SSA OQP, 53-Week Operating Year Policy, April 15, 2011, p. 2.
21
     SSA OQP, 53-Week Operating Year Policy, January 11, 2012, p. 3.



Oversight of the Year-end Hearings Process (A-05-12-21254)                                                  11
                                                                 Conclusions
SSA has a longstanding policy of not counting any Agency workload totals for a 53rd
week in its year-end MI data. In our review of ODAR hearing case workload statistics,
we found workload processing decreased significantly during Week 53. ODAR officials
also noted that they communicated the Week 53 policy to managers and attempted to
address complaints and confusion from the hearing offices. Moreover, ODAR
executives cited staff training and leave during Week 53 as a factor in the decrease in
case processing, though we did not identify any significant levels of activity in training or
leave that would explain the workload decrease. Questionnaire responses from ODAR
personnel in nine States further confirmed some employees were confused about
Week 53, and that some employees received instructions from managers to withhold
certain types of case processing.

While it appears ODAR employees were working throughout Week 53, this work was
not always being processed in the same manner nor captured in SSA’s systems. SSA
executives reported they will modify the process to ensure workloads are processed
consistently throughout years with 53 weeks, though the Agency was still determining
the specific steps related to this modification. To prevent future occurrences of
workload declines during a 53rd week, we believe the Agency needs to clearly
communicate a policy that explicitly states work will be processed and measured
uniformly throughout all years, including those with 53 weeks.




Oversight of the Year-end Hearings Process (A-05-12-21254)                                12
                                           Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Fiscal Year 2011 Performance and Accountability Report

APPENDIX D – Office of Disability Adjudication and Review Reporting Cycles for
             Fiscal Years 2011 and 2012

APPENDIX E – Comparison of National Hearing Case Processing Workloads

APPENDIX F – Year-End Processing Questionnaire Sent to Employees in Nine States

APPENDIX G – Location of Respondents to the Questionnaire




Oversight of the Year-end Hearings Process (A-05-12-21254)
                                                                      Appendix A

Acronyms
 ALJ                   Administrative Law Judge

 CALJ                  Chief Administrative Law Judge

 FY                    Fiscal Year

 GS                    Group Supervisor

 HOD                   Hearing Office Director

 IG                    Inspector General

 MI                    Management Information

 ODAR                  Office of Disability Adjudication and Review

 OMB                   Office of Management and Budget

 OQP                   Office of Quality Performance

 PAR                   Performance and Accountability Report

 Pub.L.                Public Law

 SSA                   Social Security Administration

 U.S.C.                United States Code




Oversight of the Year-end Hearings Process (A-05-12-21254)
                                                                     Appendix B

Scope and Methodology
To address our objective, we:

•   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, policies, and procedures, including applicable
    sections of the Hearings, Appeals and Litigation Law Manual and Performance and
    Accountability Reports.

•   Interviewed Office of Disability Adjudication and Review (ODAR) executives and
    management in Headquarters and regional offices regarding communication,
    complaints, Agency policy, and workload processing related to the year-end
    hearings process.

•   Interviewed managers in the Offices of Personnel; Quality Performance; and Budget,
    Finance, and Management concerning SSA’s Week 53 policy.

•   Obtained information from SSA’s Case Processing and Management System on
    workloads for Fiscal Years (FY) 2010 to 2012 and Week 53. We reviewed ODAR’s
    workload data to compare workload processing during Week 53 to other periods.

•   Obtained and reviewed leave and training data for ODAR personnel covering periods
    before and after Week 53 as well as the year-end period for FY 2010.

• Sent 2,415 questionnaires to all of the hearing office personnel in the 41 hearing
  offices and 2 decision-writing units in Alabama, Arizona, Colorado, Florida, Georgia,
  Ohio, Oklahoma, Tennessee, and West Virginia. We limited questionnaires to
  personnel in these nine States based on the October 6, 2011 Committee request,
  and the October 19, 2011 letter from Senator Coburn. We emailed the
  questionnaire on November 14, 2011, and sent reminders on November 21 and
  November 28, 2011. We then summarized the responses for the report.

Our review was limited in scope to analyzing workload and personnel data, as supplied
to us by the Agency. As such, we relied on the representations of Agency personnel
indicating the data reported to us were complete and accurate to the best of their
awareness and ability. Accordingly, our work did not constitute an audit of such
information. We conducted our review from October to December 2011 in Chicago,
Illinois. The principle entity audited was the Office of the Deputy Commissioner for
Disability Adjudication and Review. We conducted our work in accordance with the
Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for
Inspection and Evaluation.




Oversight of the Year-end Hearings Process (A-05-12-21254)
                                                                          Appendix C

Fiscal Year 2011 Performance and
Accountability Report
The Social Security Administration’s (SSA) Fiscal Year (FY) 2011 Performance and
Accountability Report (PAR) dedicates a section to comparing FY 2011 performance
year-end totals for Weeks 52 and 53 (see the table below). The presence of Week 53
led to the restatement of 17 measures. We reviewed the FY 2005 PAR and noticed that
it does not mention Week 53.

     Strategic Goal 1: Eliminate our Hearings Backlog and Prevent its Recurrence
                                                     FY 2011 Actual       FY 2011 Actual
  Performance Measures         FY 2011 Target       through Week 52      through Week 53
 1. Complete the                  815,000               793,563               795,424
    budgeted number of
    hearing requests
 2. Achieve the budgeted             107                     111                109
    goal for SSA hearing
    case production per
    workyear
 3. Achieve the target            725,000               771,318              787,190
    number of hearing
    requests pending
 4. Achieve the target to     Less than 0.5% of    0.09% of hearing       0.09% of hearing
    eliminate the oldest      hearing requests     request pending      request pending 775
    hearing requests          pending 775 days     775 days or older        days or older
    pending                        or older
 5. Achieve the budgeted          365 days             360 days              360 days
    goal for average
    processing time for
    hearing requests
 6. Achieve the target to      Less than 1% of      0.1% of Appeals       0.3% of Appeals
    eliminate the oldest       Appeals Council      Council requests    Council requests for
    Appeals Council          requests for review   for review pending   review pending 650
    requests for review       pending 650 days      650 days or older       days or older
    pending                        or older
 7. Achieve the target            370 days             360 days              358 days
    average processing
    time for Appeals
    Council requests for
    review




Oversight of the Year-end Hearings Process (A-05-12-21254)                                 C-1
          Strategic Goal 2: Improve the Speed and Quality of our Disability Process
                                                      FY 2011 Actual     FY 2011 Actual
 Performance Measures               FY 2011 Target   through Week 52    through Week 53
 8. Achieve the target                     5%              5.8%               5.9%
    percentage of initial          (September only)  (September only)   (September only)
    disability cases
    identified as a Quick
    Disability Determination
    or a Compassionate
    Allowance
 9. Complete the budgeted             3,273,000          3,371,250          3,390,936
    number of initial
    disability claims
 10. Minimize average                  118 days          109 days           109 days
     processing time for
     initial disability claims to
     provide timely decisions
 11. Disability Determination             275               291                287
     Services cases
     production per
     workyear
 12. Achieve the target                   34%               33%                33%
     percentage of initial
     disability claims filed
     online
 13. Achieve the target                845,000            720,319            759,023
     number of initial
     disability claims
     pending
 14. Increase the                 500 percent above 100 percent above 108 percent above
     percentage of disability     FY 2010 baseline  FY 2010 baseline   FY 2010 baseline
     cases evaluated using              (18,000)          (5,986)            (6,235)
     health Information
     Technology
                Strategic Goal 3: Improve Our Retiree and Other Core Services
 15. Percent of retirement,              100%              104%               106%
     survivors, and health           (4,590,000)        (4,795,086)        (4,877,955)
     insurance claims
     receipts completed up
     to the budgeted level
 16. Achieve the target                  44%                41%                41%
     percentage of
     retirement claims filed
     online
 17. Complete the                     2,422,000          2,448,092          2,456,830
     budgeted number of
     Supplemental Security
     Income non-disability
     redeterminations



Oversight of the Year-end Hearings Process (A-05-12-21254)                             C-2
                                                                      Appendix D

Office of Disability Adjudication and Review
Reporting Cycles for Fiscal Years 2011 and 2012

                               FY 2011 Reporting Cycle
                                                                      Total Days
     Month              Report Period           Work Week/Days      (Cumulative)
    Oct 2010          Sep 25 - Oct 29                 5/24                  24
    Nov 2010          Oct 30 - Nov 26                 4/18                  42
    Dec 2010          Nov 27 - Dec 24                 4/19                  61
    Jan 2011          Dec 25 - Jan 28                 5/23                  84
    Feb 2011          Jan 29 - Feb 25                 4/19                103
    Mar 2011          Feb 26 - Mar 25                 4/20                123
    Apr 2011          Mar 26 - Apr 29                 5/25                148
    May 2011          Apr 30 - May 27                 4/20                168
    Jun 2011          May 28 - Jun 24                 4/19                187
     Jul 2011          Jun 25 - Jul 29                5/24                211
    Aug 2011           Jul 30 - Aug 26                4/20                231
    Sep 2011          Aug 27 - Sep 23                 4/19                250
                                                9/25/10 - 9/23/11     52 / 250

                  Week 53: 9/24 - 9/30/11

                               FY 2012 Reporting Cycle
                                                                     Total # Days
     Month            Report Period          Work Week/Days         (Cumulative)
    Oct 2011           Oct 01 - Oct 28              4/19                    19
    Nov 2011          Oct 29 - Nov 25               4/18                    37
    Dec 2011          Nov 26 - Dec 30               5/24                    61
    Jan 2012          Dec 31 - Jan 27               4/18                    79
    Feb 2012          Jan 28 - Feb 24               4/19                    98
    Mar 2012          Feb 25 - Mar 30               5/25                  123
    Apr 2012          Mar 31 - Apr 27               4/20                  143
    May 2012          Apr 28 - May 25               4/20                  163
    Jun 2012          May 26 - Jun 29               5/24                  187
     Jul 2012          Jun 30 - Jul 27              4/19                  206
    Aug 2012           Jul 28 - Aug 31              5/25                  231
    Sep 2012          Sep 01 - Sep 28               4/19                  250
                                             10/01/11 - 9/28/12       52 / 250




Oversight of the Year-end Hearings Process (A-05-12-21254)
                                                                               Appendix E

Comparison of National Hearing Case
Processing Workloads
        Figure E-1: Comparison of Decisions Written Nationwide Following
           52-Week Fiscal Year (FY) Reporting Cycles in 2010 and 2011




Note: We compared Week 53 (September 24, 2011 to September 30, 2011) to the first week of the
reporting cycle in FY 2011 (September 25, 2010 to October 1, 2010) because both follow a 52-week FY
reporting cycle.




Oversight of the Year-end Hearings Process (A-05-12-21254)                                       E-1
           Figure E-2: Comparison of Cases Pulled Nationwide Following
                   52-Week FY Reporting Cycles in 2010 and 2011




Note: We compared Week 53 (September 24, 2011 to September 30, 2011) to the first week of the
reporting cycle in FY 2011 (September 25, 2010 to October 1, 2010) because both follow a 52-week FY
reporting cycle.




Oversight of the Year-end Hearings Process (A-05-12-21254)                                       E-2
           Figures E-3: Comparison of Hearing Held Nationwide Following
                   52-Week FY Reporting Cycles in 2010 and 2011




Note: We compared Week 53 (September 24, 2011 to September 30, 2011) to the first week of the
reporting cycle in FY 2011 (September 25, 2010 to October 1, 2010) because both follow a 52-week FY
reporting cycle.

              Table E-1: 2010 National Workloads by Processing Weeks
                                 Hearings        Decisions                         Hearings
  Weekly Periods 2010            Disposed         Written      Cases Pulled         Held
07/31/10 - 08/06/10                   8,941          11,655         15,174              8,571
08/07/10 - 08/13/10                  11,817          12,875         15,026             10,710
08/14/10 - 08/20/10                  14,719          13,625         14,595             12,442
08/21/10 - 08/27/10                  23,980          17,015         15,933             14,360
08/28/10 - 09/03/10                   9,358          11,440         14,309              9,494
09/04/10 - 09/10/10                  10,048          10,525         11,938              9,358
09/11/10 - 09/17/10                  15,205          14,644         16,730             13,424
09/18/10 - 09/24/10                  25,006          18,248         18,714             14,394
09/25/10 - 10/01/10                   7,534          11,056         15,224              9,171
10/02/10 - 10/08/10                  12,168          12,782         14,270             10,375
10/09/10 - 10/15/10                  10,292          10,327         11,608              9,448
10/16/10 - 10/22/10                  14,843          13,942         15,374             14,107
10/23/10 - 10/29/10                  24,391          17,278         16,224             14,396
Note: In 2010, the week ended October 1, 2010 is comparable to Week 53 because both are the first
week following a 52-week FY reporting cycle. FY 2010 contains the normal 52 weeks ended
September 24, 2010.




Oversight of the Year-end Hearings Process (A-05-12-21254)                                          E-3
               Table E-2: 2011 National Workloads by Processing Week
                                Hearings        Decisions
  Weekly Periods 2011           Disposed         Written   Cases Pulled Hearings Held
07/30/11 - 08/05/11                  9,320          11,862      15,993          9,606
08/06/11 - 08/12/11                 12,778          13,792      18,014         11,532
08/13/11 - 08/19/11                 15,595          14,002      17,582         12,807
08/20/11 - 08/26/11                 23,974          17,605      18,914         14,801
08/27/11 - 09/02/11                 10,789          12,017      17,007         10,158
09/03/11 - 09/09/11                 10,833          10,842      12,788          9,976
09/10/11 - 09/16/11                 16,436          15,238      18,846         14,789
09/17/11 - 09/23/11                 25,332          18,508      20,224         15,614
09/24/11 - 09/30/11                  1,861           6,334      12,069          8,571
10/01/11 - 10/07/11                 14,274          15,397      19,154         11,828
10/08/11 - 10/14/11                 12,399          10,293      12,101         10,565
10/15/11 - 10/21/11                 15,170          13,551      15,837         13,969
10/22/11 - 10/28/11                 22,853          16,435      16,830         15,422
Note: In 2010, the week ended October 1, 2010 is comparable to Week 53 because both are the first
week following a 52-week FY reporting cycle. FY 2011 contains 53 weeks ended September 30, 2011.




Oversight of the Year-end Hearings Process (A-05-12-21254)                                      E-4
                                                                                    Appendix F

Year-End Processing Questionnaire Sent to
Employees in Nine States
This survey asks questions about the Office of Disability Adjudication and Review’s
(ODAR) year-end hearing case processing. We wish to obtain a better understanding
of how ODAR processed hearing cases during the end of Fiscal Year (FY) 2011.

Please ensure all responses are complete before clicking “Next.” After you have clicked
“Next,” you will NOT be able to return to any prior page. If you realize you omitted
relevant information to a prior question, please provide the omitted information in the
“additional comments” box at the end of the survey.

We will hold your responses in the strictest confidence. This survey should take
approximately 5 to 10 minutes to complete. We thank you in advance for your
thoughtful feedback.


    1. Where were you employed during September 24-30, 2011, also known as "Week 53"?
    See Appendix G for the State where the respondents were employed. 1


    2. What was your position in the organization during September 24-30, 2011 (Week 53)?

    See Figure 3 in the body of the report for the positions of the respondents.


    3.  Does the position you held with SSA during September 24-30, 2011 (Week 53),
       generally require you to process hearing cases? Processing covers any activities
       from receipt in the master docket to the mailing of the final decision (such as, pulling
       cases, writing decisions, rendering decisions, etc.).
    Response                                                 Count              Percentage
    Yes                                                       1277                  83
    No                                                         256                  17
    Total                                                     1533                 100




1
    Our sample questionnaire focused on those States of interest to the Congress.


Oversight of the Year-end Hearings Process (A-05-12-21254)                                  F-1
    3a. During September 24-30, 2011(Week 53), which days were you in the office and
    available to process hearing cases? (Please select all that apply.)
    Response 2                                                Count       Percentage
    Monday-Friday                                               806             63
    Not in the Office                                            89             7
    Other                                                       382             30
    Total                                                      1277            100

    3b. If you were not in the office processing cases all seven days of September 24-30
    (Week 53), where were you? (Please select all that apply.)
    Response 3                                                 Count          Percentage
    On Leave one or more days                                    220              17
    In Training one or more days                                 84               7
    Other                                                        973              76
    Total                                                       1277             100

    4. Did you change your processing of hearing cases during September 24 – 30, 2011
    (Week 53) and, if so, in what way?
    Response                                                Count        Percentage
    No, during Week 53, I did not change the way I          1057              83
    typically process hearing cases
    Yes, I accelerated my case processing speed              39               3
    Yes, I delayed my case processing speed                  36               3
    Yes, I modified my case processing in some other         145              11
    way
    Total                                                   1277             100

    4a. Did you change your processing of hearing cases during September 24 – 30, 2011
    (Week 53) because you believed or knew that hearing workloads were being counted
    differently during September 24 – 30, 2011 (Week 53)?
    Response                                               Count         Percentage
    Yes, I changed my hearing case processing                121              55
    because I believed or knew that hearing
    workloads were being counted differently during
    September 24 – 30, 2011 (Week 53).
    No, I changed my hearing case processing for             99               45
    another reason.
    Total                                                    220             100




2
 In the questionnaire, we provided a listing of days during the week. In our summary of these responses,
“Other” means the respondent was in the office 1 or more days.
3
 “Other” captures numerous additional responses, such as the respondent was in the office doing work
unrelated to hearing case processing, was not scheduled to work that day due to alternate work schedule,
or did not work because it was a Saturday and/or Sunday.


Oversight of the Year-end Hearings Process (A-05-12-21254)                                           F-2
    4b. Please explain why and how you changed your processing of hearing cases
    during September 24 – 30, 2011 (Week 53). (Optional)
    We received 181 written responses.

    5. Whether or not you actually changed your case processing during September 24 –
    30, 2011 (Week 53), were you instructed or encouraged by anyone to change your
    hearing case processing for that week?
    Response                                                Count         Percentage
    Yes                                                      209              16
    No                                                      1068              84
    Total                                                   1277             100

    5a. What were you instructed or encouraged to do to change your case processing
    during September 24 – 30, 2011 (Week 53)?
    Response                                               Count          Percentage
    Asked to Accelerate case processing                      35               17
    Asked to Delay case processing                           53               25
    Asked to Modify case processing in some other           113               54
    way
    Asked to Delay case processing; Asked to Modify           4               2
    case processing in some other way
    Asked to Accelerate case processing; Asked to             2               1
    Delay case processing
    Asked to Accelerate case processing; Asked to             2               1
    Modify case processing in some other way
    Total                                                   209              100

    5b. Who instructed or encouraged you to change your hearing case processing
    during September 24 – 30, 2011 (Week 53)? (Please select all that apply.)
    Response                                                Count             Percentage
    Group Supervisor                                          50                  24
    HOD                                                       34                  16
    HOCALJ and HOD                                            12                  6
    HOCALJ;HOD; and Group Supervisor                          10                  5
    HOCALJ                                                     8                  4
    Other 4                                                   95                  45
    Total                                                    209                 100

    5c. How were you instructed or encouraged to change your hearing case processing
    during September 24 – 30, 2011 (Week 53)? (Please select all that apply.)
    Response                                               Count            Percentage
    In Writing                                               31                 15
    Orally                                                   146                70
    In Wring and Orally                                      32                 15
    Total                                                    209               100

4
 Other includes a variety of sources, such as “office rumor” and “other coworkers.” We included sources
with the most responses.


Oversight of the Year-end Hearings Process (A-05-12-21254)                                          F-3
    5d. Do you think you were instructed to modify your processing of hearing cases to
    inappropriately influence workload counts for the office for the period September 24
    – 30, 2011 (Week 53)?
    Response                                                  Count           Percentage
    Yes                                                         90                43
    No                                                          119               57
    Total                                                       209              100

    5e. Did you actually follow the instructions or encouragement you received to
    change your hearing case processing during September 24 – 30, 2011 (Week 53).
    Response                                                 Count         Percentage
    Yes                                                       143               68
    No                                                        66                32
    Total                                                     209              100

    5f. After you were instructed or encouraged to change your hearing case processing
    during September 24 – 30, 2011 (Week 53), did you submit a formal complaint (oral or
    written) to any party regarding Week 53 case processing? (Please select all that
    apply).
    Response                                                Count          Percentage
    Yes                                                       11                  5
    No                                                        198                 95
    Total                                                     209                100

    5f1. If you submitted a complaint regarding September 24 – 30, 2011 (Week 53), to
    whom did you submit your complaint? (Please select all that apply.)
    Response                                                Count          Percentage
    Group Supervisor                                           3               27
    Union Representative                                       3               27
    HOCALJ                                                     1                9
    Lead                                                       1                9
    Group Supervisor and Union Representative                  1                9
    Other                                                      1                9
    Senator’s Office                                           1                9
    Total                                                     11               99 5

    5f2. If you submitted a complaint, when did you submit your
    complaint (approximately)?
    Response                                                 Count          Percentage
    09/22/2011-11/1/2011                                      11               100

    5f3. Please briefly describe your complaint. (Optional)
    All 11 people provided written responses.




5
    May not add to 100 percent due to rounding.


Oversight of the Year-end Hearings Process (A-05-12-21254)                                 F-4
 5f4. Was your complaint resolved?
 Response                                                    Count      Percentage
 Yes                                                           3            27
 No                                                            8            73
 Total                                                        11           100

 5f5. If your complaint was resolved, how was your complaint resolved? (Optional)
 Two people provided responses

 6. For any periods during September 25, 2010 through September 23, 2011 (please
 note this excludes Week 53), do you think you were instructed to modify your
 processing of hearing cases to inappropriately influence the workload counts for the
 office?
 Response                                                 Count         Percentage
 Yes                                                        97                8
 No                                                        1180              92
 Total                                                     1277             100

 6a. If someone instructed you to modify your processing for any periods from
 September 25, 2010 through September 23, 2011, approximately how often were you
 instructed to do so?
 Response                                                Count          Percentage
 Almost a daily basis                                      13                13
 Almost a weekly basis                                     18                19
 Almost a monthly basis                                    27                28
 A few times during the year                               39                40
 Total                                                     97               100

 7. Has management ever rewarded you for the number of hearing cases you
 processed during a specific period?
 Response                                             Count          Percentage
 Yes                                                    147              12
 No                                                    1130              88
 Total                                                 1277             100

 7.a. How has management rewarded you for the number of hearing cases you
 processed during a specific period. Please describe how you were rewarded.
 (Optional)
 We received 126 written responses.

 8. Has management ever penalized you for the number of hearing cases you
 processed during a specific period?
 Response                                              Count         Percentage
 Yes                                                     101              8
 No                                                     1176              92
 Total                                                  1277             100




Oversight of the Year-end Hearings Process (A-05-12-21254)                              F-5
 8a. How has management penalized you for the number of hearing cases you
 processed during a specific period? Please describe how you were penalized.
 (Optional)
 We received 90 written responses.

 9. If you are part of a formal performance appraisal process, to what degree does
 management include your hearing case workload counts as part of its evaluation
 criteria?
 Response                                                  Count          Percentage
 A significant part of the performance appraisal             315               25
 Equal in part to a number of other items in the             380               30
 performance appraisal
 A small part of the performance appraisal                   117               9
 Is not considered                                           94                7
 I am not part of a formal performance appraisal             371               29
 process
 Total                                                      1,277             100

 Please let us know if you have any additional comments regarding the ODAR
 workload processing. (Optional)
 We received 473 written responses.




Oversight of the Year-end Hearings Process (A-05-12-21254)                             F-6
                                                                    Appendix G

Location of Respondents to the Questionnaire
We received 1,533 questionnaire responses from Office of Disability and Adjudication
and Review staff in Alabama, Arizona, Colorado, Florida, Georgia, Ohio, Oklahoma,
Tennessee, and West Virginia. Of the respondents, 15 indicated they were at a
different location during Week 53. The locations and positions of the respondents are
shown in Table G-1.

        Table G-1: Respondents to the Questionnaire by Region and State
             Region                     State              Number of Respondents
   Region III: Philadelphia          West Virginia                  119
                                      Alabama                       194
                                       Florida                      278
   Region IV: Atlanta
                                       Georgia                      201
                                     Tennessee                      221
   Region V: Chicago                    Ohio                        260
   Region VI: Dallas                  Oklahoma                      113

   Region VIII: Denver                 Colorado                       51
   Region IX: San                      Arizona                        81
   Francisco
   Other                                                              15
   Total                                                            1,533
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
